                          Closeout of M90020003
 On February 7, 1990,                University in
n o t i f i e d us that    I   was proceeding to an
 allegations of a

                                                  , who had been
employed by the
dishonesty involved (1) submitting an article without the
professor's knowledge or permission; (2) making false claims in
the article regarding the research scientist's contributions to
the development of the techniques reported; and (3) compromising
the work done by others as well as the competitive position of
the professor's research program by publishing the techniques and
results.
The university's completed investigative report was received in
OIG on                         The committee did not find any
evidence40f academic dishon/sty by the senior research sciedtist
and therefore recommended no punitive action.      The committee,
however, did find probable errors in judgment, communication,
mutual trust, and professional courtesy by both parties.        It
noted that both the professor and the senior research scientist
are talented individuals who have made and could continue to make
major contributions.     Further, the investigative committee
suggested that each party send letters to appropriate journal
editors explicitly acknowledging certain contributions, short of
co-authorship, by the other in two previously published papers.
Our review of the final investigative report found that the
university investigative committee had proceeded conscientiously
with its task. We accepted the findings of the university's
investigative report and closed this case.
              >a


%     $-*
James J. Zwolenik
26 March 1991


cc:   Inspector General
